HHS/OIG-Audit--"Report on Summarization of Head Start Grantee Audit Findings, (A-07-91-00425)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Report on Summarization of Head Start Grantee Audit Findings," (A-07-91-00425)
January 27, 1992
Complete
Text of Report is available in PDF format (1.44 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report found that training and technical assistance as well as fiscal
and program oversight would be helpful to correct persistent deficiencies in grantee
internal controls and reporting systems. We are recommending that ACF reevaluate
all important aspects of financial management and accountability including technical
assistance, financial reporting, tracking audit reports and audit resolution. The
ACF generally agreed with our recommendations and has initiated implementation
of most of the recommendations.